<html>
<title> - HEARING TO REVIEW ANIMAL PEST AND DISEASE PREVENTION AND RESPONSE CAPABILITIES</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]










                   HEARING TO REVIEW ANIMAL PEST AND 
                    DISEASE PREVENTION AND RESPONSE
                              CAPABILITIES

=======================================================================

                                HEARING

                               BEFORE THE

           SUBCOMMITTEE ON LIVESTOCK AND FOREIGN AGRICULTURE

                                 OF THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 21, 2019

                               __________

                            Serial No. 116-7



              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov

                               __________

                      U.S. GOVERNMENT PUBLISHING OFFICE
                      
36-522 PDF                 WASHINGTON : 2019 






















                        COMMITTEE ON AGRICULTURE

                COLLIN C. PETERSON, Minnesota, Chairman

DAVID SCOTT, Georgia                 K. MICHAEL CONAWAY, Texas, Ranking 
JIM COSTA, California                Minority Member
MARCIA L. FUDGE, Ohio                GLENN THOMPSON, Pennsylvania
JAMES P. McGOVERN, Massachusetts     AUSTIN SCOTT, Georgia
FILEMON VELA, Texas                  ERIC A. ``RICK'' CRAWFORD, 
STACEY E. PLASKETT, Virgin Islands   Arkansas
ALMA S. ADAMS, North Carolina        SCOTT DesJARLAIS, Tennessee
    Vice Chair                       VICKY HARTZLER, Missouri
ABIGAIL DAVIS SPANBERGER, Virginia   DOUG LaMALFA, California
JAHANA HAYES, Connecticut            RODNEY DAVIS, Illinois
ANTONIO DELGADO, New York            TED S. YOHO, Florida
TJ COX, California                   RICK W. ALLEN, Georgia
ANGIE CRAIG, Minnesota               MIKE BOST, Illinois
ANTHONY BRINDISI, New York           DAVID ROUZER, North Carolina
JEFFERSON VAN DREW, New Jersey       RALPH LEE ABRAHAM, Louisiana
JOSH HARDER, California              TRENT KELLY, Mississippi
KIM SCHRIER, Washington              JAMES COMER, Kentucky
CHELLIE PINGREE, Maine               ROGER W. MARSHALL, Kansas
CHERI BUSTOS, Illinois               DON BACON, Nebraska
SEAN PATRICK MALONEY, New York       NEAL P. DUNN, Florida
SALUD O. CARBAJAL, California        DUSTY JOHNSON, South Dakota
AL LAWSON, Jr., Florida              JAMES R. BAIRD, Indiana
TOM O'HALLERAN, Arizona              JIM HAGEDORN, Minnesota
JIMMY PANETTA, California
ANN KIRKPATRICK, Arizona
CYNTHIA AXNE, Iowa

                                 ______

                      Anne Simmons, Staff Director

              Matthew S. Schertz, Minority Staff Director

                                 ______

           Subcommittee on Livestock and Foreign Agriculture

                    JIM COSTA, California, Chairman

ANTHONY BRINDISI, New York           DAVID ROUZER, North Carolina, 
JAHANA HAYES, Connecticut            Ranking Minority Member
TJ COX, California                   GLENN THOMPSON, Pennsylvania
ANGIE CRAIG, Minnesota               SCOTT DesJARLAIS, Tennessee
JOSH HARDER, California              VICKY HARTZLER, Missouri
FILEMON VELA, Texas                  TRENT KELLY, Mississippi
STACEY E. PLASKETT, Virgin Islands   JAMES COMER, Kentucky
SALUD O. CARBAJAL, California        ROGER W. MARSHALL, Kansas
CHERI BUSTOS, Illinois               DON BACON, Nebraska
JIMMY PANETTA, California            JIM HAGEDORN, Minnesota

                Katie Zenk, Subcommittee Staff Director

                                  (ii)
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Conaway, Hon. K. Michael, a Representative in Congress from 
  Texas, opening statement.......................................    11
Costa, Hon. Jim, a Representative in Congress from California, 
  opening statement..............................................     1
    Prepared statement...........................................     3
Peterson, Hon. Collin C., a Representative in Congress from 
  Minnesota, opening statement...................................     9
Rouzer, Hon. David, a Representative in Congress from North 
  Carolina, opening statement....................................     4

                                Witness

Ibach, Hon. Greg, Under Secretary, Marketing and Regulatory 
  Programs, U.S. Department of Agriculture, Washington, D.C.; 
  accompanied by Burke Healey, D.V.M., Associate Deputy 
  Administrator, Veterinary Services, Animal and Plant Health 
  Inspection Service, USDA.......................................     5
    Prepared statement...........................................     7
    Submitted questions..........................................    35

 
                   HEARING TO REVIEW ANIMAL PEST AND 
                    DISEASE PREVENTION AND RESPONSE
                              CAPABILITIES

                              ----------                              


                         TUESDAY, MAY 21, 2019

                  House of Representatives,
         Subcommittee on Livestock and Foreign Agriculture,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to call, at 11:02 a.m., in 
Room 1300 of the Longworth House Office Building, Hon. Jim 
Costa [Chairman of the Subcommittee] presiding.
    Members present: Representatives Costa, Brindisi, Hayes, 
Cox, Craig, Harder, Carbajal, Panetta, Peterson (ex officio), 
Rouzer, Thompson, Hartzler, Comer, Marshall, Bacon, Hagedorn, 
and Conaway (ex officio).
    Staff present: Emily German, Matt MacKenzie, Katie Zenk, 
Ashton Johnston, Patricia Straughn, Jeremy Witte, Dana Sandman, 
and Jennifer Yezak.

   OPENING STATEMENT OF HON. JIM COSTA, A REPRESENTATIVE IN 
                    CONGRESS FROM CALIFORNIA

    The Chairman. The Subcommittee on Livestock and Foreign 
Agriculture will now come to order. This morning, we have an 
opportunity to review animal pest and disease prevention 
response capabilities in last year's reauthorization of the 
farm bill that we all worked on together. There were some 
changes and we made efforts to better assist America's poultry 
industry, and the purpose of this morning's Subcommittee 
hearing on Livestock and Foreign Agriculture is, in fact, to 
determine how those changes are coming forth. I want to thank 
our witness today for joining us to review the challenges that 
faces American agriculture by animal pests and diseases, and 
the ability for the United States Department of Agriculture to 
control those challenges. It is an important topic that many of 
us have followed these issues on behalf of farmers and ranchers 
throughout the country, certainly in my district, and we in 
this Subcommittee take responsibility to oversee the United 
States Department of Agriculture's response to outbreaks that 
occur nationwide, and obviously, we take that role very 
seriously.
    The livestock and poultry farmers throughout America are 
facing difficult times for a number of reasons. Obviously, the 
trade wars are having their impact: challenging markets. But 
some have even been faced with issues of natural disasters of 
floods and other kinds of impacts that they are facing.
    The last thing we need to do then, is to have to deal with 
another devastating animal disease outbreak. Clearly, that is 
something that we want to prevent at all possible costs.
    The USDA APHIS Veterinary Services have traditionally and 
today play a critical role. Working with a host of stakeholders 
in preventing, monitoring, and responding to disease outbreaks, 
whether we are talking about livestock operations, large or 
small are a part of this effort. I am glad that we have Under 
Secretary Greg Ibach and Dr. Burke Healey with the Committee 
today to testify.
    As we speak, poultry farmers in California, I can tell you 
from my own personal experiences, are dealing with an outbreak 
of virulent Newcastle Disease. This Newcastle disease, since 
May of 2018, over 400 cases of this disease has been confirmed 
by the USDA, with all but two having occurred in California 
flocks. Last week, I met with one of the effected egg farmer in 
my office who told me that they had over 100,000 chickens that 
had been contacted with the disease.
    I think all of us fear that that can spread. Luckily, it 
was detected and we were able to stop that in the case of that 
outbreak in the San Joaquin Valley.
    The poultry industry knows all too well what happens when a 
disease gets out of control. Remember, we are only a few years 
removed from the outbreak of avian influenza that claimed more 
than 50 million birds and cost farmers millions of dollars to 
eradicate in parts of our country. And by no means are poultry 
farmers the only ones at risk.
    Around the world today, pork producers are concerned about 
the African Swine Fever, which has caused the loss of at least 
20 percent of China's hog population, with more likely to come, 
we believe, based on estimates. That already exacerbates the 
hobbled demand for U.S. feedgrains in that country, which could 
wreak havoc on the U.S. if it reaches our shores.
    We are also conscious of the constant calculating threats 
to cattle and other species, like foot-and-mouth disease, 
cattle fever ticks, screwworm, and others. All of these are 
potential causes of concern for our livestock industries.
    As a conferee for the 2018 Farm Bill, it was a priority of 
mine to make sure that livestock and poultry producers had new 
tools to prevent these diseases, and the right resources to 
fight them if they ever did. During that process, we have 
created two new programs, and I am very interested this morning 
to hear about the efforts to implement these two new programs: 
the National Animal Disease Preparedness and Response Program, 
and the National Animal Vaccine and Veterinary Countermeasures 
Bank. We reauthorized the National Animal Health Laboratory 
Network. We think all of these tools are very, very important 
to ensure that we guard our livestock industries.
    I am also proud of the bipartisan House-led effort to 
secure $300 million in new funding for animal pest and disease 
prevention control. I want to thank former Chairman Conaway and 
certainly Chairman Peterson and others as we came together in a 
bipartisan effort to do just that.
    Today, I look forward to hearing how implementation of this 
is going on, and those other important programs. I am going to 
be focused on your timelines in terms of implementation of 
these efforts within the USDA. I want to hear more on the 
status of APHIS' efforts to prevent and respond to threats that 
I have mentioned, as well as many others that keep America's 
farmers and ranchers up at night. If they keep them up at 
night, I can assure they keep Members of Congress up at night.
    What is the USDA doing on the timelines to implement the 
changes in last year's farm bill? Very simply stated, what are 
you doing to implement the changes, and what are your 
timelines? What can you tell the Committee this morning?
    I think this is critical work. I am committed to staying in 
touch with USDA. We will use this Subcommittee on a bipartisan 
basis to ensure that we provide the proper oversight for our 
livestock and poultry sectors to make sure that we get the 
strategy straight and on the right track, and that we support 
your efforts.
    In closing, I would also like to get any thoughts that you 
might have with innovations that are taking place in biological 
technology. I think it shows promise and certainly, Dr. Healey, 
I would like to get your thoughts and what promise it shows and 
what the USDA is doing in that area of innovation as it relates 
to biological technology.
    [The prepared statement of Mr. Costa follows:]

Prepared Statement of Hon. Jim Costa, a Representative in Congress from 
                               California
    Thank you for joining us today to review the challenges presented 
by animal pests and diseases, and the ability of USDA to respond to 
those challenges. It's an important topic and I have followed these 
issues on behalf of the farmers and ranchers in my district throughout 
my career. I take the responsibility to oversee USDA's response to 
these outbreaks nationwide very seriously in my role as Chairman of 
this Subcommittee.
    Livestock and poultry farmers are facing tough times because of 
trade wars and challenging markets. Some have even been faced with 
natural disasters and other challenges. The last thing they need is to 
have to deal with a devastating animal disease outbreak. USDA-APHIS 
Veterinary Services play a critical role, working with a host of 
stakeholders in preventing, monitoring, and responding to disease 
outbreaks in livestock operations large and small nationwide, so I'm 
glad to welcome Under Secretary Greg Ibach and Dr. Burke Healey to the 
Committee today.
    As we speak, poultry farmers in California are dealing with an 
outbreak of virulent Newcastle Disease. Since May 2018, USDA has 
confirmed over 400 cases of the disease, with all but two of those 
cases occurring in California flocks. I had one of the effected egg 
farmers in my office last week, who told me that he has lost more than 
100,000 chickens to the disease.
    Cases of the disease have appeared close to my home in the San 
Joaquin Valley, the heart of California's poultry industry but luckily 
it was detected and stopped. The poultry industry knows all too well 
what happens when a disease gets out of control. Remember we are only a 
few years removed from an outbreak of avian influenza that claimed more 
than 50 million birds and cost farmers millions to eradicate.
    By no means are poultry farmers the only ones at risk. Around the 
world today, pork producers are concerned about African Swine Fever, 
which has caused the loss of at least 20 percent of China's hog 
population--with more likely to come--exacerbated the already hobbled 
demand for U.S. feedgrains in that country and which could wreak havoc 
on the U.S. if it ever reached our shores.
    We are also always conscious of constantly circulating threats to 
cattle and other species like foot-and-mouth disease, cattle fever 
tick, screwworm, and others.
    As a conferee for the 2018 farm bill, it was a priority of mine to 
make sure livestock and poultry producers had new tools to prevent 
these diseases from ever taking hold, and the right resources to fight 
them if they ever did. During that process, we created two new 
programs, the National Animal Disease Preparedness and Response 
Program, and the National Animal Vaccine and Veterinary Countermeasures 
Bank; and we reauthorized the National Animal Health Laboratory 
Network.
    I'm also proud of the bipartisan, House-led effort to secure $300 
million in new funding for animal pest and disease prevention and 
control.
    Today, I look forward to hearing how implementation is going on 
those and other important programs. I also want to hear more on the 
status of APHIS's efforts in preventing and responding to the threats 
I've mentioned, as well as the many others that keep America's farmers 
and ranchers up at night. This is critical work and I am committed to 
staying in touch with USDA and the livestock and poultry sectors to 
make sure we get our strategy right.
    With that I'll recognize my Ranking Member, the distinguished 
gentleman from North Carolina, Mr. Rouzer, for any opening remarks he'd 
like to make.

    The Chairman. With that, I would like to recognize the 
Ranking Member, the distinguished gentleman from North 
Carolina, Mr. Rouzer, for any opening remarks that he would 
like to make.

  OPENING STATEMENT OF HON. DAVID ROUZER, A REPRESENTATIVE IN 
                  CONGRESS FROM NORTH CAROLINA

    Mr. Rouzer. Thank you, Chairman Costa, for holding today's 
hearing to discuss the latest animal health issues affecting 
our nation's livestock industry, and to review the U.S. 
Department of Agriculture's animal pest and disease programs.
    This is really, really a critical topic. I would like to 
say that food security is national security. There is no 
question that the animal agriculture sector faces pest and 
disease threats capable of devastating the rural economy and 
our nation's food supply, and I might add, our general economy 
as well.
    In the lead-up to the 2018 Farm Bill, this Subcommittee 
held several hearings to discuss the known and unknown threats 
against the animal agriculture sector. Largely, as a result of 
the effort of us here in the House of Representatives and the 
body as a whole, along with the hard work by USDA and the 
livestock industry, we made an historic investment in the tools 
necessary for USDA and its state government and industry 
partners to identify, diagnose, and respond to potential 
outbreak as part of the 2018 Farm Bill.
    In addition to the new authorities provided in the farm 
bill, other provisions within the Animal Health Protection Act 
affords the USDA broad authority to detect, control, and 
eradicate pests and diseases affecting the livestock industry. 
This robust animal health protection system will continue to be 
tested, and we must work hard to ensure that we rise to the 
challenge of combating threats like foot-and-mouth disease, 
African Swine Fever, avian influenza, PEDV, and many others.
    Now, I would like to thank our witness here today, Under 
Secretary Greg Ibach, along with Associate Deputy Administrator 
Burke Healey for taking the time to be with us. We look forward 
to hearing an update on USDA's progress on these farm bill 
implementation issues, and your continued efforts to protect 
America's livestock industry.
    Mr. Chairman, I yield back.
    The Chairman. Thank you very much, my colleague. I would 
like to request that Members submit their opening statements 
for the record so that our witness may begin his testimony to 
ensure that we have ample time for questions for all of us.
    With that, I would like to welcome the United States 
Department of Agriculture Under Secretary for Marketing and 
Regulatory Programs, Greg Ibach. In this role, the Under 
Secretary has the oversight for Agricultural Marketing Service, 
and Animal and Plant Health Inspection Service, which includes, 
as we noted in our opening statements, the Veterinary Services 
team that we will be discussing today. I want to thank our 
witness for being here, and the Under Secretary, as I noted, is 
accompanied by Dr. Burke Healey, Associate Deputy Administrator 
for Veterinary Services for Animal and Plant Health Inspection 
Service, otherwise known as APHIS. Dr. Healey has firsthand 
experience in responding to animal disease outbreaks, and I 
look forward to his help in responding to questions that we may 
have for you.
    We will now begin with the testimony. Mr. Under Secretary, 
you have 5 minutes. You know the rules here. When the light 
turns yellow, you have 1 minute left, and we would like you to 
focus on being concise and forthright, and we look forward to 
the questions.

        STATEMENT OF HON. GREG IBACH, UNDER SECRETARY, 
            MARKETING AND REGULATORY PROGRAMS, U.S. 
         DEPARTMENT OF AGRICULTURE, WASHINGTON, D.C.; 
        ACCOMPANIED BY BURKE HEALEY, D.V.M., ASSOCIATE 
  DEPUTY ADMINISTRATOR, VETERINARY SERVICES, ANIMAL AND PLANT 
                HEALTH INSPECTION SERVICE, USDA

    Mr. Ibach. Thank you very much, Chairman Costa and Ranking 
Member Rouzer. Also, thank you to Chairman Peterson and Ranking 
Member Conaway for being here today as well.
    Thank you for the invitation to be here today to give you 
an update on USDA's animal health efforts. I am Greg Ibach, the 
Under Secretary for Marketing and Regulatory Programs. With me 
today is Dr. Burke Healey, the Associate Deputy Administrator 
for APHIS' Veterinary Services Program.
    All of us have an important mission: to help our farmers 
and ranchers provide high quality agricultural products to feed 
and clothe the world. To do this, we must keep foreign animal 
pests and diseases out of the country. Because our agricultural 
products are clean and free of disease, we are able to maintain 
and expand export markets.
    Thankfully, USDA has a robust set of tools to fight these 
pests and diseases that we continually evaluate and strive to 
enhance. Our authority under the Animal Health Protection Act 
allows us to create a comprehensive system of overlapping 
safeguards. Before we allow anything into the country, USDA 
evaluates the disease risk and designs import protocols backed 
by the best possible science.
    The Agriculture Quarantine Inspection Officers at U.S. 
Customs and Border Protection are on the frontlines of this 
prevention effort. They inspect cargo and passengers coming 
into the country to ensure these import protocols are met. If a 
pest or disease ever makes it into the country, our 
surveillance and detection programs allow us to identify it and 
swiftly begin a targeted containment, control, and eradication 
response.
    These tools have served us well. Using them, we have kept 
serious animal diseases threats like foot-and-mouth disease out 
of the country for 90 years. Today, the animal disease that 
currently is most top of mind is African Swine Fever, or ASF. 
We have been monitoring outbreaks of ASF in Europe and Asia for 
a number of years. An outbreak in the U.S. would have severe 
economic consequences, especially considering there is no 
vaccine available.
    While we are confident in the tools we have relied on in 
the past, I would like to outline several steps we have taken 
to enhance our safeguards against ASF.
    Aside from our longstanding import restrictions, we have 
worked with CBP to focus inspections on cargo and passengers 
coming from high-risk areas. We are training 60 new detector 
dog teams that help sniff out any illegally imported products 
carried by passengers or in cargo. We are working to identify 
high-risk pathways for illegal products, trace the origin, and 
shut down those pathways. Simply put, we find smuggled items, 
including meat, meat products, and take enforcement actions to 
prevent bad actors from continuing to illegally move product 
into the United States.
    We have worked with producer groups and veterinarians to 
stress the importance of biosecurity measures to protect their 
animals from outside visitors, and to remind them of symptoms 
to watch for and proper response activities if they suspect an 
infection.
    If under some unfortunate circumstance the disease does 
come in, we will be ready. We have ramped up our diagnostic 
capabilities at facilities affiliated with the National Animal 
Health Laboratory Network. We have reviewed our response plans 
with our state and industry partners, and have tested those 
plans through exercises. We have more exercises planned in the 
coming months, which will include international considerations.
    ASF continues to be a worldwide concern. We have met with 
and continue to work with our international partners. Just a 
few weeks ago, I participated in an ASF forum in Ottawa to 
further our efforts with Canada and Mexico, and to establish a 
coordinated North American approach to ASF.
    In addition to our ongoing ASF prevention efforts, we are 
also actively working to combat virulent Newcastle Disease in 
California. I am sure many of you have been keeping a close eye 
on those efforts, and I am happy to answer any questions you 
might have.
    Finally, we are very appreciative of the resources provided 
in the farm bill. As you know, the farm bill entrusted the 
Secretary with significant discretion to prioritize funding for 
what we call the three-legged stool. These three legs include 
the Laboratory Network, the Animal Disease Preparedness and 
Response Program, and the U.S. Vaccine Bank. We are evaluating 
all the possible implementation options in hopes of designing 
these programs for long-term success. We have met and continued 
to meet with interested stakeholders to gain insight and 
guidance from all segments of the industry to address these 
various disease concerns.
    Mr. Chairman, this concludes my statement. I would be happy 
to answer any questions that you or Members of the Subcommittee 
may have.
    [The prepared statement of Mr. Ibach follows:]

 Prepared Statement of Hon. Greg Ibach, Under Secretary, Marketing and 
 Regulatory Programs, U.S. Department of Agriculture, Washington, D.C.
    Chairman Costa, Ranking Member Rouzer, and Members of the 
Subcommittee, I am pleased to be before you today to discuss pressing 
animal health issues and provide an update on the U.S. Department of 
Agriculture's (USDA) efforts to address them. Secretary Sonny Perdue 
has charged all of us at USDA to ``do right and feed everyone.'' It is 
a mission that I, in my role as Under Secretary for Marketing and 
Regulatory Programs (MRP), take to heart every day. At MRP we strive to 
help our farmers and ranchers produce high-quality plants, animals, and 
related products that are in demand all around the world, and to 
protect and preserve export markets to facilitate the clean, safe trade 
of those goods.
    Central to those efforts is our ability to keep harmful foreign 
plant and animal pests and diseases out of the country. One of the two 
agencies I oversee, the Animal and Plant Health Inspection Service 
(APHIS) leads those important actions. Given today's hearing topic, my 
testimony will focus on APHIS' animal health function. Using its 
authority under the Animal Health Protection Act, the agency has 
created a comprehensive system of overlapping safeguards that protects 
U.S. agriculture from foreign animal pests and diseases.
    APHIS, using the best available scientific research, identifies 
pests and diseases of concern around the globe and implements necessary 
mitigations to reduce risk prior to entry of animals or animal products 
into the United States. Upon entry, animals and animal products are 
subject to inspection to ensure that importers are meeting our rigorous 
animal health import requirements. APHIS trains specialists at its 
partner agency--U.S. Customs and Border Protection (CBP)--to identify 
and detect potentially problematic imports. Beyond import inspections, 
CBP also employs airport passenger inspection programs, which include 
the highly successful detector dog program, to help identify and 
intercept illegally imported meats and other products that may harbor 
disease.
    Should pests or disease make it into the country, APHIS' 
surveillance and detection programs allow us to identify them and 
immediately initiate a targeted response program to swiftly eradicate 
the pest or disease.
    The importance of these programs has been evident in recent years. 
The 2014-2015 outbreak of highly pathogenic avian influenza in the 
Midwest was our nation's largest ever animal health disease outbreak. 
The impacts to individual producers and taxpayers were significant, but 
ultimately, USDA and our state and industry partners were able to 
marshal all available resources to successfully combat the devastating 
disease. Our efforts eventually proved effective, but there were many 
lessons learned along the way--chief among them, the importance of 
proper biosecurity. While our priority is always prevention, when an 
outbreak does occur we can all work together to limit its spread and to 
reduce the size of the impact.
    In a more recent example of a highly successful response effort, 
USDA was able to eradicate an outbreak of New World screwworm from the 
Florida Keys in 2017. As soon as the livestock pest was identified--the 
first identification in fifty years--USDA and its partners sprang into 
action. Working with state and local partners, we began active 
surveillance in the region to identify the pest's location and 
conducted inspections of animals and pets in the area and those passing 
through. To eradicate the pest, we used sterile insect technology, 
releasing over 150 million sterile flies that killed off the small 
population in a matter of months. Our swift efforts limited the spread 
and effects of this devastating pest while minimizing trade 
implications.
    USDA is also in the midst of addressing an ongoing outbreak of 
virulent Newcastle Disease (vND) in Southern California. Until the 
outbreak began last May, we had not seen this disease in 15 years. 
Using his emergency authority under the Animal Health Protection Act, 
Secretary Perdue made available $45 million in emergency funding to 
enhance our ability to fight this disease, which is mostly affecting 
backyard poultry. We are working closely with our state partners to 
enhance surveillance and detection activities and to ensure euthanasia 
of potentially exposed birds. This funding has also allowed us to work 
closely with commercial properties to strengthen biosecurity and to 
increase outreach to backyard producers to help slow the spread of the 
disease. APHIS has done a lot of work in recent years to promote 
regionalization with our foreign trading partners, and thankfully, that 
work seems to have paid off. Trade disruptions have been minimal with 
most of our trading partners limiting export restrictions to the county 
or regional level. Other than those directly affected by the outbreak, 
most poultry producers have seen little impact from this disease, 
thanks to our efforts.
African Swine Fever
    Our overarching prevention strategies and lessons-learned from 
these and related response activities have informed USDA's efforts to 
address the growing threat of African Swine Fever (ASF). We have 
effectively protected against ASF thus far, but its continuing spread 
throughout Asia is of great concern. ASF is a highly contagious and 
deadly virus that affects domestic and wild pigs. However, it is 
important to note that this disease does not pose a risk to human 
health, and it is not a food safety concern.
    Nevertheless, should the disease ever enter our country, the 
effects on individual producers, the thousands of businesses that 
support the swine industry in their local communities, and the economy 
at large, would be severe. There is currently no ASF vaccine, leaving 
depopulation of infected and potentially infected animals as the only 
viable method of eradication. A positive detection could have major 
implications on trade--likely resulting in the immediate shutdown of 
vital export markets. While we have worked hard to promote 
regionalization and would push our trading partners to limit trade 
restrictions, it would take time to fully restore these markets.
    Despite these concerns, I want to provide some assurances. Even 
before the recent ASF detection in China, USDA was closely monitoring 
outbreaks of the disease throughout Europe and determining necessary 
actions to keep this devastating disease out of the country. We have a 
number of longstanding tools and processes in place that we continue to 
evaluate and enhance.
    First in our line of defense are our import restrictions. We 
currently do not allow pork and pork products into the country from 
China, and we have not in many years, due to the presence of other 
diseases such as classical swine fever and foot-and-mouth disease. We 
have kept these diseases out with the tools we have in place, and we 
believe we can do the same with ASF.
    Second are enhanced inspections and travel notifications. We worked 
with CBP to ensure their focused attention on commodities and 
passengers coming from high-risk areas. CBP looks closely at cargo 
coming into the country from these areas to ensure no illegally sourced 
meat products are coming in. Additionally, passengers CBP deems at 
highest risk are subject to secondary agricultural inspections to 
ensure they are not carrying meat or meat products that could harbor 
the virus, or that other possible risks--such as on-farm visitation--
are mitigated.
    Through its National Detector Dog Training Center in Georgia, APHIS 
is training 60 additional beagle teams, up to a total of 179, for CBP's 
use during inspections to detect and identify agricultural commodities 
that may harbor pests and diseases, including ASF. These dogs are being 
deployed at airports and facilities around the country. We have also 
worked to notify international travelers--through voice announcements 
and signage at ports of entry--of the potential danger of bringing in 
seemingly harmless food items that may harbor and spread dangerous 
pests and diseases like ASF.
    Additionally, APHIS, through its Smuggling Interdiction and Trade 
Compliance (SITC) program works to identify and close down high-risk 
pathways for smuggled goods and products. This includes efforts to 
track down meat and meat products smuggled into the country and 
illegally sold at ethnic markets, and to take enforcement action 
against those involved in those illegal activities.
    Third, we have ramped up our ability to rapidly diagnose this 
disease. We have greatly expanded the number of facilities affiliated 
with our National Animal Health Laboratory Network (NAHLN) that can 
detect ASF. We now have 44 laboratories and 170 laboratory personnel 
approved to test for this disease allowing us the ability to review 
over 38,000 samples a day and providing the surge capacity to quickly 
diagnosis and swiftly eradicate the virus should it enter the country.
    We have also worked closely with a variety of stakeholders to raise 
awareness of ASF. We have engaged producer groups regarding the 
importance of biosecurity and on-farm protocols to prevent the disease 
and mitigate farm-to-farm transmissions. Additionally, we have worked 
to ensure producers and veterinarians alike are familiar with ASF 
symptoms and are aware of the proper response actions should they 
suspect infection.
    We continue to work closely with our counterparts in Canada and 
Mexico to strengthen and coordinate prevention and preparedness 
measures across North America. A few weeks ago, I attended the ASF 
Forum, an international event hosted by Canada that included animal 
health officials and agricultural leaders from around the world. We 
discussed common concerns about ASF and the ways we all need to work 
together to limit the disease's spread while still maintaining trade. 
We are committed to continuing these important discussions and keeping 
you and our industry partners apprised of their progress.
    Finally, we have held and will continue to hold ASF response 
exercises with states, and we have reviewed and updated our ASF 
response plans to ensure our strategies for responding to ASF--which 
are similar to how we would respond to many other foreign animal 
diseases--are up-to-date and understood by everyone who would have a 
role in carrying them out.
The Farm Bill and Animal Health
    While we have a robust set of tools to address ASF and other 
foreign animal pests and diseases under our existing authorities, I was 
pleased to see and greatly appreciate the new tools Congress gave us as 
part of the 2018 Farm Bill.
    In addition to the increased support for the existing NAHLN, the 
bill created two new programs: the National Animal Vaccine Bank and the 
National Animal Disease Preparedness and Response Program (NADPRP). 
NADPRP will help us keep foreign pests and diseases out of the country. 
The enhancements to NAHLN will allow us to detect and diagnose disease 
to improve our response capabilities. The vaccine bank will help us 
recover from certain animal health diseases. Together, these three 
programs will work together, building off our existing authorities and 
tools, which enhances our ability to protect, preserve, and even 
expand, foreign trading markets for the high-quality animals and animal 
products our farmers and ranchers produce.
    The vaccine bank, which is to be primarily focused on a vaccine for 
foot-and-mouth (FMD) disease, will be an effective insurance policy 
should that disease strike. FMD vaccine would provide an additional 
tool to limit the spread of the disease and allow for a more rapid road 
to recovery on a path that reopens export markets.
    However, the vaccine bank will only be useful should the disease 
enter the country. Thankfully, as with ASF, we have proven steps in 
place to keep it out in the first place, and the NAHLN and the NADPRP 
program will go a long way to helping us identify and close any gaps in 
our animal disease prevention programs for FMD and other foreign animal 
diseases. As we envision the NADPRP program, states, universities, 
industry and other groups would suggest targeted projects and research 
that would advance our animal health mission. After an evaluation 
process, we would fund the most promising of those projects, relying on 
our partners to carry them out, thereby expanding our ability and 
knowledge with their expertise. We have had great successes with a 
similar plant health program, and I am confident that these new 
projects will prove equally as effective.
    We recently held a listening session with stakeholders on these 
programs and were encouraged to hear tremendous support for each of 
them. Like you, we want them up and running as quickly as possible and 
are in the process of evaluating all possible implementation options. 
But as you know, the farm bill entrusted the Secretary with significant 
discretion as to how to carry out these programs, and we want to ensure 
we make the right decisions to set these programs up for long-term 
success. We certainly appreciate the flexibility provided by the farm 
bill and its no-year funding, and also your patience as we work through 
this important process.
Conclusion
    Whether it's our focus on addressing the growing threat of ASF, or 
implementing the farm bill, USDA and our dedicated employees remain 
committed to supporting our farmers and ranchers by keeping foreign 
animal pests and diseases at bay. We have, and continue to build upon, 
a robust set of tools and strategies for preventing and combating ASF 
and other potential threats. These and similar efforts have proven 
effective for years. With your continued support--and that of our 
state, industry, and global partners--I am confident they will prove 
successful for years to come.
    This concludes my statement. I would be happy to answer any 
questions that you or the Members of the Subcommittee may have.

    The Chairman. Thank you very much, Secretary.
    I would like to, at this time, defer to the Chairman of the 
Committee who has questions, and it is the appropriate 
protocol. Chairman Peterson, you are recognized.

OPENING STATEMENT OF HON. COLLIN C. PETERSON, A REPRESENTATIVE 
                   IN CONGRESS FROM MINNESOTA

    Mr. Peterson. Thank you, Mr. Chairman. Thank you, Mr. 
Ibach, for being here.
    As you know, we had High-Path Avian Influenza in my 
district and we learned some lessons from that, and that is one 
of the reasons I was such a strong supporter of getting this 
mandatory money in place so you guys can plan for the future.
    In my district, the hog producers are very concerned about 
this African Swine Fever issue, and I brought this up last 
week, and I appreciate the efforts that you guys are making to 
control the stuff coming in on the airplanes and so forth.
    But what I am wondering is I have heard there is a lot of 
research going into finding a vaccine, and that is underway, as 
I understand it. But what other research or work are you doing 
at USDA to try to figure out how to control this stuff if it 
ever does get into the country and take a hold here? What kind 
of work are you doing to understand how the virus moves from 
herd to herd and how to clean up infected sites and all of 
those issues that we learn about with the high-path AI? I would 
assume the Chinese are dealing with this, so I just kind of 
wondered where you guys are at and what your strategy is to put 
this together so we are ready, God forbid, if this ever ends up 
in the United States?
    Mr. Ibach. You are correct that there is a lot of research 
being done on all kinds of fronts with African Swine Fever. 
African Swine Fever has proven to be a tough disease to find a 
cure for, or a vaccine for, and even to understand completely 
how we can decontaminate or disinfect a premises once it 
becomes present in that building or facility.
    On the vaccine side of things, we still believe we may be 
as long as 8 years from finding a vaccine that is effective. We 
are working on diagnostics right now in cooperation with Canada 
through ARS research to try to have different tools available 
to us to determine if the disease is present in a population.
    Just as you mentioned with High-Path Avian Influenza, we 
learned at that time that biosecurity measures were key. And 
even though we thought we had good biosecurity measures in 
place, we learned as the disease progressed that maybe we 
didn't have quite the stringent measures that we needed to have 
in place. And so, that is one thing that we hope we learned 
from that experience that we are sharing with the swine 
industry, and trying to work through at this time to make sure 
not only do we have those biosecurity measures in place at the 
border, but that we are also working with individual swine 
producers across our country to make sure they are thinking 
about how they are protecting themselves from exposure from 
outside visitors that could bring the disease into their 
operations.
    Mr. Peterson. Are they engaged in this across the whole 
industry? I mean, are they really paying attention at the 
individual producer level?
    One of the things we found out with the high-path avian 
issue, we had a whole bunch of people staying in one hotel or 
in one apartment building that were working at five different 
farms, and they were coming in at night and so forth and going 
back out. Is that kind of thing on the radar screen of the hog 
producers? Are they being informed about this, and is their 
industry focused on it?
    Mr. Ibach. Yes. We are working very closely with the 
industry. I probably speak almost personally once a week with 
either a leader at NPPC or one of their veterinarians on staff 
there. We continue to try to talk about all kinds of measures 
that we will take if the disease does become diagnosed here in 
the U.S., and so I think that we are very focused. The swine 
industry is very aware of the devastating economic impact it 
could have, not only on individual producers, but on their 
industry as a whole, and our economy would feel it if we had a 
widespread disease here in the U.S. I feel we are very focused 
on communication and working together.
    Mr. Peterson. Well, thank you, and thank you for what you 
are doing to put this together. I think you put it on the fast 
track, and hopefully nothing will come of it, but we are going 
to try to be ready in case something does. Thank you for your 
service.
    Mr. Ibach. Thank you.
    The Chairman. I want to thank Chairman Peterson for his 
focus and his efforts on behalf of this Subcommittee, and all 
the Subcommittees within our House Agriculture Committee.
    Congressman Rouzer and I both, as I noted earlier, respect 
protocol, and I want to therefore defer to the Ranking Member 
of the House Agriculture Committee, Congressman Conaway.

OPENING STATEMENT OF HON. K. MICHAEL CONAWAY, A REPRESENTATIVE 
                     IN CONGRESS FROM TEXAS

    Mr. Conaway. Well, thank you, Mr. Chairman. I appreciate 
you not saying you respect age or old age, whatever it is.
    Greg, the veterinarians are a key part of everything that 
we do. Particularly in rural America, there is a shortage of 
livestock veterinarians that practice, I mean, we have some 43 
counties in Texas that don't have a veterinarian, most of those 
are in south and west Texas; we have 6,600 veterinarians in 
Texas, and 180 of them practice in the livestock business. And 
so, a little shout out to Texas Tech University for fighting 
their way through the legislative process to establish a large 
animal vet program there at Texas Tech to begin to try to meet 
some of these shortages.
    Are you seeing this same trend in other states besides 
Texas? And then also, what are the implications for local 
economies, animal health, and public safety if we don't have a 
requisite number of veterinarians who service livestock?
    Mr. Ibach. As director of ag in Nebraska previous to coming 
to USDA, the shortage of large animal veterinarians was not 
lost on me in that position. In fact, we utilized some of the 
programs that Congress had authorized to be able to recruit and 
retain large animal veterinarians.
    Part of the shortage is that being a large animal 
veterinarian puts you at odds with the elements in some of your 
practice at times, and as vet school-screened students to come 
into vet school, sometimes the students that are happy to be 
out on a ranch in blizzards or in cold weather, rain, sleet, 
and snow, aren't the same students that are going to score a 
perfect score in organic chemistry or some of those disciplines 
that I think have gained more emphasis in the selection 
process.
    In order to also help address the problem, not only the 
programs that Congress has authorized, but also an emphasis on 
aligning and selecting students that want to really be large 
animal veterinarians is important.
    Mr. Conaway. In Texas, I am a CPA and we periodically go 
through, and the profession itself goes through, an analysis to 
say at entry level point, what are those qualifications? What 
are those deals that qualify folks? Is it a similar process for 
veterinarians across the United States that would look at those 
standards of what really is necessary to get somebody into vet 
school?
    Mr. Ibach. I think there is a lot of variation between vet 
schools. Obviously, Texas Tech has taken a focus and looked at 
large animal as a specific need and sought to prioritize that. 
In other areas of the country in urban areas where small animal 
practices are important too, maybe that same focus isn't in 
place. I think that we need to look at the supply and demand of 
each category of veterinarian and try to see how we best meet 
that.
    Mr. Conaway. I appreciate that.
    Back on the African Swine Fever and the vectors by which it 
gets here. I understand we import a significant amount of 
organic feed from China. If that feed goes through some sort of 
radiation process, does that change the standard of organics, 
and what are we doing reference vectors other than meat that 
might be bringing that disease to us?
    Mr. Ibach. Organic feed and soybeans specifically has been 
an issue or an area of concern for quite a while. And so, I 
actually on the AMS side have access to looking at those 
numbers of imports of organic products, and we have seen a real 
downturn in the amount of organic products coming from China, 
especially in the feedgrain side and the oilseed side of 
things.
    That is something that we also are working very closely 
with the pork industry on, their concerns over that as well. 
And we had them in a few months ago and actually talked about 
17 different areas of concern. Feed was one of them.
    As we look at trying to address the concerns in feed, we 
don't have the same science to analyze the risk there that we 
have in some of the other vectors that we are seeking to 
control. And the swine industry is highly dependent on some 
imports from China, especially in the micronutrient area. And 
so, shutting down all imports of feed would actually hurt the 
swine industry. We have agreed to work very closely with them 
on research to try to determine what, if we did take measures 
to address the concerns there, would actually be based in 
science, and what actions we would take that would make a 
difference. And at this time, in agreement with the swine 
industry, we haven't taken any additional steps.
    Mr. Conaway. Thank you, Mr. Secretary.
    Mr. Chairman, I yield back.
    The Chairman. All right. The gentleman yields back.
    As I said in my opening comments, one of the focuses this 
morning I wanted to do is to see where you are in terms of 
getting the programs up and running as soon as possible. Can 
you tell us what the timeline currently is with the National 
Animal Disease Preparedness and Response Program, as well as 
the National Animal Vaccine and Veterinary Countermeasures 
Bank?
    Mr. Ibach. We believe at USDA that all three legs of the 
stool are important and play a role in the steps we are taking.
    The Chairman. No, I know. You said that, but what is the 
timeline?
    Mr. Ibach. We are prepared to be able to meet our 
expectations to invest at least the first $5 million in the 
preparedness effort before the end of the year. We are meeting 
regularly with not only the----
    The Chairman. How about the countermeasures bank?
    Mr. Ibach. The countermeasures bank, we are meeting with 
poultry as well as swine and beef to understand how we might 
balance that----
    The Chairman. But you don't have a timeline there yet?
    Mr. Ibach. We hope by the end of the year we might be 
prepared to advertise or put out an RFP to----
    The Chairman. And with the changes that have been made to 
the National Animal Health Laboratory Network in the farm bill 
last year, where are you in terms of implementing those 
changes?
    Mr. Ibach. We continue to invest money in the laboratory 
network. Most recently, we invested money to be able to 
increase the capability of that lab network to test for African 
Swine Fever, and we are going to continue to evaluate where we 
can bolster that network.
    The Chairman. Well, many of us are hearing different things 
from the industry folks that are dependent upon that.
    What alarms me, Mr. Secretary, is that the President's 
budget request for APHIS in the Fiscal Year 2020 does not show 
any overall increase in spending from the 2018 levels. That 
would be difficult enough, but in fact, it proposes to cut the 
National Animal Health Laboratory Network, as well as other key 
programs within your budget. The point of these new authorities 
and funding was not to reduce the funding in existing areas or 
to replace your current work. I guess what I am looking for, as 
well as Members of the Subcommittee, what assurances you can 
give me that the new mandatory money you are getting for the 
farm bill will actually be used to improve our preparedness and 
response capabilities, and not offset budget cuts in other 
areas?
    You have been around long enough to know the President 
proposes and the Congress disposes, so we are working on the 
budget, but I hope that we are going to have a budget that 
allows you to implement the changes.
    Mr. Ibach. As a livestock producer myself and a beef 
producer, I understand the importance of animal health at a 
producer level, as well as at a regulatory level. We look 
forward at APHIS to being wise stewards of whatever----
    The Chairman. No, I understand that, and you are 
representing the Administration. I get that, but the bottom 
line is, I certainly don't expect you to do more with less. 
That wasn't why we made the changes last year.
    Mr. Ibach. I understand that, sir.
    The Chairman. And those are the things we are going to keep 
coming back to you on this to see how that is going.
    Let me get a little local here. As I noted, we had the egg 
producers in here last week. Some folks got some nice omelets. 
But one of my local producers complimented the USDA in response 
to the outbreak, but they were frustrated that in terms of the 
indemnities because of the avian flu losses that we had in 
California, that they were based on prices that didn't reflect 
the markets in California, which were higher in terms of the 
reimbursement rates. Is there some way to make sure that 
indemnities better match market values?
    Mr. Ibach. That is one of our constant struggles, and the 
indemnities is something that we have worked on to try to make 
them appropriate without making them attractive to have animals 
brought in to be able to take advantage of the indemnity.
    When we look at production birds versus some of the 
exhibition birds that we are looking at, there can be a wide 
range in what producers deem the value of those birds to be.
    The Chairman. No, I understand there is a dispute, but 
obviously, we would like you to work that out and so that the 
indemnity reimbursement is fair and equitable based upon 
regional markets, and that is the question there.
    I have also got a question with regards to foot-and-mouth 
disease, which is a huge concern for cattle, sheep, and pork. 
The recent Government Accountability Office made many 
recommendations on how USDA could improve your preparedness. 
What actions have you taken?
    Mr. Ibach. Yes. To improve preparedness against foot-and-
mouth disease?
    The Chairman. Right.
    Mr. Ibach. I think that that is part of what we are 
leveraging at the border, how we work with CBP to identify 
countries that are of greater risk at perhaps being a vector 
for it to come into the United States.
    The Chairman. Chairman Peterson asked if I would yield, and 
I would obviously always honor the Chairman's request.
    Mr. Peterson. Just 10 seconds.
    I forgot to ask, on behalf of Mr. Vela and myself, we have 
been down looking at fever ticks in Texas. Would you give us an 
update? Mr. Vela sent you a letter, but I would like an update 
on what you are doing with fever ticks and how it is going to 
play into whatever you are doing with this new agency.
    Mr. Ibach. Yes, fever ticks continue to be a pressure on 
our southern border, and we have worked very hard to try to 
maintain that permanent quarantine zone.
    I am also pleased to report that with the change of 
Administration in Mexico, I had the opportunity to meet with 
some of the leadership there, and they pledged their support to 
try to do more on the Mexican side of the border, which would 
be very helpful if they help push back the fever tick 
populations from the border with what we want to accomplish 
there.
    The Chairman. Was the gentleman from Minnesota's question 
answered?
    Mr. Peterson. We are good.
    The Chairman. All right. I now would like to yield to the 
Ranking Member of the Subcommittee, Congressman from North 
Carolina, Congressman Rouzer.
    Mr. Rouzer. Thank you, Mr. Chairman.
    Obviously, African Swine Fever is a big topic of concern. 
Certainly, in my State of North Carolina, we have a lot of pork 
production in my neck of the woods.
    Can you walk us through what would happen if ASF is found 
in Mexico or Canada, and then follow up to that, do we have a 
coordinated North American strategy with Mexico and Canada on 
this issue?
    Mr. Ibach. We are working on laying the groundwork to have 
a coordinated strategy in place here in North America. We have 
worked more closely with Canada up to this point in time 
because of the live animal movement that goes back and forth 
between Canada and the U.S., but Mexico is also a concern.
    The first thing we would do if a disease was identified in 
one of those countries is, after consultation with the CVO in 
that country, decide what animal movement we needed to limit or 
regulate until we were able to determine if they had controlled 
and contained the spread of the disease in order to protect our 
U.S. swine industry.
    Mr. Rouzer. Do those two countries have the resources? Do 
they have the apparatus in place to address it adequately, or 
is it woefully inadequate?
    Mr. Ibach. Canada has a very similar network in place that 
we have in the United States. They have been very worried. 
Their producers have been very worried because the export 
market is a higher percent of their domestic production even 
than it is for us, so it is very scary to them, and they have 
worked very hard to be prepared.
    Mexico, I know it is on their radar screen and they 
participated in a symposium in Canada as well. We aren't as 
familiar with where they are at, but do have confidence that we 
would be able to work with them if they did diagnose the 
disease.
    Mr. Rouzer. You mentioned exports. Obviously, that is 
important for us. Hypothetically, worst case scenario we have 
an outbreak here in the United States. What do we have in place 
from a trade perspective in terms of mitigating that trade 
fallout?
    Mr. Ibach. We are working on a regionalization agreement 
with Canada right now that would allow us to try to establish 
regionalization. As you know, in the poultry industry, we have 
outbreaks of low-path AI that result in trade implications, but 
because of regionalization agreements, we are able to keep 
those at the county level, in many cases, sometimes at the 
state level to those export restrictions. We want to be able to 
establish that with pork as soon as possible. A lot of it will 
depend on our early diagnosis, our ability to contain the 
disease, and our ability to assure trading partners that we do 
understand the nature of the spread of the disease.
    Mr. Rouzer. Can you elaborate a little more on the 
surveillance measures that you have in place, not only for 
African Swine Fever, but the other diseases out there? What 
APHIS is doing in particular in coordination with state 
governments and private industry, and others?
    Mr. Ibach. That is our major focus on surveillance as well 
as being alert and vigilant for symptomatic expression of the 
disease is very much reliant on our state partners. And so, we 
are communicating with them. Part of the hope in the disease 
preparedness portion of the farm bill that Congress identified 
is to be able to work even more closely with those state 
partners to give them more tools to develop a network that we 
can rely on.
    Mr. Rouzer. Is there a fairly large discrepancy between the 
states or disparity between the states in terms of what they 
have in place, and what are we doing to help equalize that?
    Mr. Ibach. I think that the states have worked very hard, 
especially those states that have a large livestock populations 
that rely on them and are economically dependent on the 
livestock industry. They have worked very hard to be prepared.
    USDA has worked very closely with them and continues to 
communicate with them to help them understand the importance of 
being prepared. We have had a number of exercises over the past 
decade, mainly focused on foot-and-mouth disease, but the 
principles are the same if we would have another disease. The 
same type of control and containment measures are universal.
    Mr. Rouzer. Thank you. Thank you both.
    Mr. Chairman, I yield back.
    The Chairman. All right, the gentleman yields back.
    The Chair will now recognize the gentleman from New York, 
Congressman Brindisi.
    Mr. Brindisi. Thank you, Mr. Chairman. [audio malfunction 
in hearing room] requirements are adequate to keep the U.S. 
safe?
    Mr. Ibach. I believe so. They are requirements that we have 
relied on for years and decades, and for 90 years now we have 
been able to keep foot-and-mouth disease out of the U.S. using 
these protocols. In the face of the threat that African Swine 
Fever poses right now, we have even raised the protocols and 
the awareness of the protocols, our coordination with Customs 
and Border Protection to have them be a full partner with us is 
at an all-time high. And so, we are quite confident yet.
    Mr. Brindisi. Outside of your testimony, what other types 
of animal pests or diseases are of current significant concern 
to USDA?
    Mr. Ibach. Classical Swine Fever probably wasn't part of my 
testimony. That is another disease that is prevalent in many 
countries across the world that we are concerned about. Foot-
and-mouth, of course, is one of the diseases that we are 
concerned about. PRRS we have here in the United States, but it 
is more prevalent in other countries that we continue to be 
concerned about as well.
    Mr. Brindisi. I want to ask about something that is of 
concern to folks on the East Coast, the long-horned tick. It is 
an invasive pest from East Asia. It has been found in New 
Jersey and other East Coast states, and as a representative 
from New York with over one million head of cattle, that is 
very concerning to me as well. The pest reproduces asexually, 
which makes it particularly concerning to spread rapidly, and 
according to the literature, it can transmit a wide variety of 
diseases, especially for cattle.
    What is the plan for making sure this tick doesn't become 
an important U.S. vector of livestock disease?
    Mr. Ibach. We have some experience in dealing with ticks 
from our southern border and along Texas, and we will continue 
to see whether or not we need to put control measures in place 
in other portions of the United States to protect against other 
ticks that could be of interest.
    There may be an endemic population in some areas already, 
and we need to do research to understand the threat that they 
might pose.
    Mr. Brindisi. Okay. I do want to just follow up a little 
bit on the Chairman's questions, because I am also very 
concerned about the President's budget request for Fiscal Year 
2020, which reduces the activities of the National Animal 
Health Laboratory Network by over $5 million per year.
    Just outside my district is Cornell University, which is a 
level 1 lab located not too far from my district, and they do 
great work. With so many diseases of high concern present 
around the world, why would you request this decrease, 
especially after Congress strongly supported this function?
    Mr. Ibach. Some of the shift was to be able to make sure we 
had funds available for the NBAF facility that is being built 
near Kansas State University. But we also do not take lightly 
the importance of the lab network, and the importance of having 
the proper diagnostic abilities located in all areas of the 
United States.
    Mr. Brindisi. Okay, and just really briefly, can you 
comment on what you are doing to encourage veterinary workforce 
training and recruitment in critical fields, because I am 
hearing a lot about shortages throughout the country.
    Mr. Ibach. Well thanks to Congress, USDA has several 
programs available to it to be able to support especially large 
animal veterinarians, and we continue to work with states to be 
able to grant out those dollars and have them be effectively 
used.
    Mr. Brindisi. Thank you.
    Mr. Chairman, I yield back my time.
    The Chairman. The gentleman yields back his time, and the 
chair will now recognize the Congresswoman from Missouri, 
Congresswoman Hartzler.
    Mrs. Hartzler. Thank you.
    The Chairman. The ``Show-Me State.''
    Mrs. Hartzler. That is right, the ``Show-Me State.'' I 
appreciate that, Mr. Chairman. I want to commend you for the 
new surveillance program for the African Swine Fever. That is 
very encouraging and very, very important, and I was interested 
to hear about the dog teams that you have secured. I was just 
wondering, how long will it take to get them trained and ready, 
and when can we expect them at the ports?
    Mr. Ibach. There are several components that go into it. We 
are acquiring dogs right now. Some of those are shelter dogs, 
when we can find beagles in the shelters that are of the right 
age and health status to be able to incorporate into our 
program. We are also working with Customs and Border Protection 
to identify the handlers that get trained at the same time as 
the dogs, and we already have identified some teams to be able 
to put in place in the training program. And so, as they 
graduate from that training program, we will be deploying them 
periodically throughout the next year.
    Mrs. Hartzler. How long is the training, when they go into 
training?
    Mr. Ibach. Six to 12 months, Dr. Burke says.
    Mrs. Hartzler. Okay, very good.
    We have heard a lot of discussion here already about the 
ticks, and this is something that is devastating this whole 
country, but certainly my district, Lyme disease. I do believe 
it is an epidemic, and it is impacting many individuals with 
long-term health problems and as well as livestock. What 
efforts has USDA found to be successful in controlling tick-
borne diseases in animals, and what experience does USDA have 
to lend to the U.S. as a whole in controlling the spread of 
Lyme and other tick-borne diseases, including to people?
    Mr. Ibach. I might just make a few comments, and then I 
will let Dr. Healey maybe go into more depth on this question.
    But this is one of the cases where Secretary Perdue's one 
USDA philosophy is very important to us. We work with ARS and 
REE to understand the science and have research to be able to 
base action at APHIS on.
    Dr. Healey. Thank you. As you know, we have done several 
projects in the past, so cattle fever tick being the most 
visible one. That tick was throughout the South and was pushed 
back to that small strip in Texas.
    The challenge that we are having today is the tools that we 
have used, and historically organophosphates and other types of 
tools and coming up with new mechanisms and new tools. And as 
the Under Secretary just identified, we are working with ARS to 
develop new tools that we can utilize. Some of those are 
vaccines that we can use. There are novel uses of current drugs 
that are out there that we can utilize, but even going into 
other types of materials that are not drugs, so essential oils 
and things of that nature have even shown some benefit.
    Trying to develop those better tools and tools for the 
future that aren't going to be a challenge through the 
regulations at EPA and the other types of environmental issues 
that we can develop.
    Mrs. Hartzler. Great. I have an entrepreneur in Missouri 
that has developed a nutrition supplement that can be added to 
feed for deer, domestic deer at this point, and it repels 
ticks. And he shows a lot of promise there, so I may visit with 
you back about that, because that might be something we can 
utilize.
    Just in the minute and a half left, I wanted to switch to 
the announcement last week that a Chinese firm has entered into 
a partnership with UK-based livestock genetics company to bring 
to Chinese markets gene edited pigs resistant to the PRRS 
virus, and also develop commercially available African Swine 
Fever resistant pigs. And since it is so hard to seek approvals 
from the FDA, it would place U.S. farmers at enormous risk and 
disadvantage if other countries can access these innovations, 
but U.S. producers can't. Can you detail what steps USDA has 
taken to engage with the FDA to make them aware of the needs of 
farmers, and has any work been done to try and find a more 
workable regulatory pathway so our pork producers and farmers 
have that same opportunity for those advanced genetics?
    Mr. Ibach. I share your concerns that as we see the 
innovation being identified in many cases here in the U.S. at 
our research institutions, that we are seeing other countries 
as offering the pathway to commercialization. Horned dairy 
cattle are being commercialized in Canada. Brazil and Argentina 
have both invited in gene editing for projects that they are 
looking to commercialize. It could put U.S. producers at a 
disadvantage.
    At the same time, gene editing offers a great opportunity 
to address some of the consumer concerns we have. If we can 
eliminate disease through gene editing, we don't have to use 
antibiotics to treat sick animals.
    Some of the animal welfare concerns that are out there, if 
we can suppress sexual maturity so that we can eliminate 
castration, again is something consumers may find of value.
    I think that gene editing is something that we do need to 
work on together with FDA. We have had some very cursory 
conversations with FDA to see what their vision for their path 
forward on gene editing is. Perhaps there is an opportunity for 
us to work together with FDA to find a solution similar to the 
one we found with cellular protein where we split that 
jurisdiction to work together to move it to commercialization 
faster.
    The Chairman. Thank you, Mr. Secretary. The gentlewoman's 
time has expired. We thank you for your responses.
    The chair will now recognize the gentleman from California, 
my neighbor, Congressman TJ Cox.
    Mr. Cox. Thank you, Mr. Chairman, and thanks for calling 
the hearing today. Mr. Under Secretary and Dr. Healey, thanks 
for being here. I appreciate the Chairman bringing up the 
concerns of our California egg producers as they deal with the 
outbreak of Newcastle disease on one side, and then the other 
point that he brought up, looking for equitable indemnities for 
lost production.
    As you well know, the disease is a major threat to our 
state's egg producers, and certainly once again, I want to 
reiterate the need to prioritize a response for eradicating 
this disease and certainly to look for the equitable indemnity 
payments to better reflect market value of our California egg 
prices, and certainly would like to see if you have something 
you have written about that to get over to the Committee and to 
our office.
    With specific regard to the outbreak of Newcastle disease, 
I heard during your testimony that the USDA recently tapped $45 
million in existing funds to address the disease, particularly 
in California. Could you tell me just a bit more about how 
these funds are being used? When do you expect that they will 
run out, if they will, and given these new resources, why do we 
continue to see additional cases of the disease reported 
weekly?
    Mr. Ibach. Newcastle in that area of California, the three 
southern counties that are mainly our focus area, we have had a 
few outliers, but we have been able to crush those before they 
spread outside of the areas in northern California, Utah, and 
Arizona. But it continues to be a problem in southern 
California.
    We are partnering very closely with the California 
Department of Agriculture and the state vet. It is a joint 
project that we are working on together. In 2018 we supported 
the plan that California had in place to work through the 
problem, but we were unable to get our arms around it. Last 
fall in cooperation with CDFA as well as with the national 
poultry industry, we determined that a more 2003 modeled 
program that was used back then when we had the last virulent 
Newcastle outbreak was appropriate. We had some funding left in 
the high-path AI category that with the permission of the 
national poultry industry, we moved $45 million of those 
dollars over to Newcastle. And so, we have begun a way more 
aggressive approach to Newcastle.
    As we have taken that more aggressive approach, we are 
going to identify more positive flocks. Hopefully as we 
identify those flocks and eliminate those flocks, as well as 
depopulate dangerous contact flocks in the area, we will see 
those diagnoses go down over time.
    Mr. Cox. Great. From what I understand, the current USDA 
policy for virulent Newcastle Disease calls for a fallow period 
with no paid virus elimination funding, why would the USDA pay 
for virus elimination for avian influenza, but not for virulent 
Newcastle Disease?
    Mr. Ibach. I will ask Dr. Healey to address that question.
    Dr. Healey. The challenge is, as I am sure you are aware, 
being from that area, is the neighborhood issue. And so, we are 
finding very dense pockets of backyard birds, commercial birds, 
et cetera, and the fallow period is the way that virus moves, 
if we were to clean and disinfect and restock that premise 
while the disease is still circulating in the neighborhood, 
they would re-infect themselves and we would just have a never-
ending cycle. We have to use the fallow period in order to have 
a break, if you will, in the disease cycle.
    Mr. Cox. Great.
    Under Secretary, you mentioned with APHIS you used the best 
available research to guide your decision making, and can you 
share just a bit on how APHIS decides what research is done 
internally and also share specific ways the agency works with 
other research areas at USDA, as well as universities and other 
external research organizations?
    Mr. Ibach. I will defer to Dr. Healey.
    Mr. Cox. Sure.
    Dr. Healey. The research that we are doing is collaborative 
research, and bringing in through a variety of cooperative 
agreements and other mechanisms of that type that reach out to 
the states and universities to help assist us with those 
research protocols.
    Mr. Cox. Great, thanks. Thank you so much.
    The Chairman. All right, the gentleman is yielding his 
time, and the chair will now recognize the gentleman from 
Kentucky, Mr. Comer.
    Mr. Comer. Thank you, Mr. Chairman, and Under Secretary 
Ibach, it is great to have you here today.
    In a previous life, I was the Commissioner of Agriculture--
--
    Mr. Ibach. Commissioner, yes.
    Mr. Comer.--in Kentucky, and you were in Nebraska. I 
appreciate your strong ag background and the work you are doing 
at USDA.
    In Kentucky, we are major poultry producers. In fact, a lot 
of people don't realize this even in Kentucky, poultry is the 
largest agriculture crop in Kentucky by far. And all the 
poultry processors in Kentucky are in my Congressional 
district.
    When I was Commissioner of Agriculture, we had an issue 
with disease outbreak in some poultry houses. It was actually 
West Nile virus outbreak, and with the state veterinarian's 
office eradicated the birds and we were successful in the 
eradication process, obviously, and the disease did not spread. 
But that is one thing that our producers know, but a lot of 
Americans don't know, that the prevention of livestock disease 
outbreaks is one of the biggest roles that USDA and State 
Departments of Agriculture play.
    To go along with what Congresswoman Hartzler was saying 
with respect to gene editing and disease resistant animals, 
there has been a lot of roadblocks within the FDA from a 
regulatory standpoint to prevent this or to slow the process 
down. What are some things that we in Congress can do to get 
the roadblocks out of the way to where we can progress with 
this type of technological advancement?
    Mr. Ibach. You have lots of options available to you, in 
Congress. I know that as far as USDA is concerned, we are very 
optimistic about what gene editing provides for in animals.
    Earlier last year, a year ago in April, actually, the 
Secretary moved forward with talking about gene editing in 
plants where USDA has full regulatory authority, and we 
announced that as if it was something that could be done 
through a normal plant breeding process, but we could do it 
with less generations or without losing yield or other benefits 
through gene editing that we were not going to regulate that. 
And so, that is very consistent with the path that much of the 
Western Hemisphere is using in plant biotechnology, and 
actually very consistent with where large parts of the Western 
Hemisphere are landing on animal biotechnology as well.
    Mr. Comer. Outstanding. My next question, I wanted to 
obviously give a shout-out to one of the livestock diagnostic 
labs in Kentucky is in my district. Murray State University has 
the brand-new Breathitt Laboratory that we are very proud of. I 
want to mention, as you know, but in the farm bill, we included 
enhanced funding for the National Animal Health Laboratory 
Network. I just wanted to say in my limited time that I look 
forward to working with you to see that these labs continue to 
succeed and stay at the forefront of playing that vital role of 
livestock disease outbreak. And I didn't know if you had any 
comments about that or anything that we could do to further 
ensure that these livestock diagnostic labs continue to exist 
and play the vital role that they serve in agriculture?
    Mr. Ibach. As Director of Agriculture, again, I had the 
experience of working with USDA cooperatively to make sure that 
our lab in Nebraska was successful. But I also think it is 
important that we have the capability to match the species that 
are prevalent in the different states across the United States. 
Not every lab needs to be able to do every test, but we need to 
have the capability to match up with the threat, as well as the 
workload or species load that might be prevalent.
    I think that is part of the reason why as we evaluate the 
three legs of the stool and how to divide those investments 
between, when there are competing priorities. There is also the 
need to be able to spread that initial investment that Congress 
made available over the first 4 years of the program and not 
exhaust it at the beginning, and be responsible with that. We 
are working very closely with industry, with universities to be 
able to understand how we make the right division of that 
funding to be able to have the greatest impact.
    Mr. Comer. Great. Thank you very much for your good work, 
Mr. Under Secretary. We look forward to working with you in the 
future.
    Mr. Chairman, I yield back.
    The Chairman. The gentleman yields back, and the chair will 
now recognize the gentlewoman from Minnesota, Congresswoman 
Craig.
    Mrs. Craig. Thank you so much, and thank you, Under 
Secretary Ibach, for being here today, and thank you to the 
Chairman and the Ranking Member for holding this hearing.
    The livestock industry is obviously incredibly important to 
the economy of greater Minnesota, and obviously, it is 
inextricably tied to animal health and disease prevention. In 
Minnesota, we rank number one in the nation for turkey 
production and number two in the nation for hog production.
    Thankfully, this Committee demonstrated commitment to 
animal health in the 2018 Farm Bill, and I look forward to 
hearing about your agency's plan to fully implement those 
programs in a timely manner.
    Mr. Ibach, as you know, in 2014 and 2015 Highly-Pathogenic 
Avian Influenza wreaked havoc on Minnesota poultry, resulting 
in the loss of over nine million birds in Minnesota. The losses 
in birds coupled with the impact on food processors, truckers, 
and consumers totaled an estimated loss of $3.3 billion 
economy-wide. What is your agency doing to prevent a similar 
outbreak in the future, and how do you work with relevant state 
and industry partners? What lessons learned would you share 
with producers to improve biosecurity, as you mentioned in your 
testimony?
    Mr. Ibach. Yes, I think that that was unfortunately a great 
opportunity for not only USDA and states to learn a lot about 
an animal disease outbreak, but try to learn from it as well. 
And so, we have worked very closely with the poultry industry 
to help them understand the risk factors that maybe contributed 
to the outbreak and the rapid spread of it, and try to help 
them understand and work with us as we try to help them 
increase biosecurity and prevention measures.
    Mrs. Craig. Thank you.
    To shift to swine for just a moment, we all know that 
African Swine Fever continues to be an imminent threat, 
especially of concern to my pork producers. Obviously, it would 
be devastating to the economy if it arrived in the United 
States. Can you tell us a little bit more about the work you 
are doing abroad to work with China and address their likely 
underreporting of ASF, and how could this impact the global 
management of the disease?
    Mr. Ibach. As far as working with China, we have offered 
our APHIS veterinarians. We have international services 
officers in place in Beijing that do other important work with 
the import/export endeavors we have there, but we have offered 
them as technical experts to China. Up to this time, China has 
not accepted their assistance.
    We have reached out in Vietnam and some of the research 
that we are doing in conjunction with Canada with looking at 
diagnostics for African Swine Fever. We are hoping to maybe 
have the opportunity to field test in cooperation with Vietnam 
to be able to verify that they are accurate or hone our 
accuracy of those tests.
    We are reaching out and trying to learn from what is going 
on in China and Vietnam, and have had varying levels of success 
with that cooperation.
    Mrs. Craig. Thank you.
    Just one final question. Chronic wasting disease, I know it 
wasn't mentioned in your testimony, but it continues to 
threaten southeast Minnesota. And frankly, it is just a matter 
of time until we see it as severely as our neighbors in 
Wisconsin have.
    The University of Minnesota continues to be a terrific 
partner in testing possible cases. Can you quickly comment on 
the work your agency is doing to contain CWD and prevent the 
spread into areas like my district in southeastern Minnesota?
    Mr. Ibach. Our statutory authority is largely focused on 
those captive herds, and we just released some protocols to put 
in place, new protocols to be more responsive in those captive 
herds. We are also working in cooperation with the greater 
population to be able to do research to understand the disease 
better and look for if not cures, ways to limit the spread of 
the disease.
    Mrs. Craig. Thank you so much, and Mr. Chairman, I yield 
back the remainder of my time.
    The Chairman. The gentlewoman yields back the remainder of 
her time, and the chair will now recognize the gentleman from 
Kansas, Congressman Marshall.
    Mr. Marshall. Thank you, Mr. Chairman, and welcome, Under 
Secretary. It is always good to see you.
    I am going to start off this conversation about one of my 
favorite topics, and that is the Silicon Valley of bio agro-
defense research, which is Manhattan, Kansas, and we are so 
proud of NBAF and what is going on there, that we are on time 
and maybe even under budget. That is exciting. I am looking 
forward to USDA doing a lot of research there.
    Of course, folks back home are concerned about the funding 
of it, and there is traditional funding through ARS, the 
cooperative agreement, but we think there are other 
opportunities as well, collaborative opportunities leveraging 
that knowledge.
    How does USDA see those opportunities beyond the 
traditional funding?
    Mr. Ibach. Actually, we are quite excited about those 
opportunities as well at USDA, and APHIS and ARS work very 
closely together with dividing up our animal disease 
responsibilities in APHIS that occur in NBAF with the research 
opportunities that ARS is in control of.
    Actually tomorrow, Mr. Crosswhite sitting behind me is 
going to go participate in a program that ARS is sponsoring 
that we are bringing in biologics companies to understand how 
the biologics development module can be used to leverage that 
research to be able to determine how we can move that into 
commercialization as rapidly as possible.
    We are looking forward to hearing their ideas about how we 
develop those cooperative ventures to be able to leverage and 
get the most out of the facility.
    Mr. Marshall. A quick follow up NBAF question: There is 
still some animal research going to be done at Plum Island. 
What additional research do you think--what differently will we 
be doing in Manhattan as opposed to Plum Island?
    Mr. Ibach. Manhattan gives us the opportunity to have our 
first U.S. BSL-4 lab available to us, which means we will be 
able to not only work on important animal diseases that we have 
been working on, but we will be able to work on some zoonotic 
diseases like Ebola that we haven't been able to do as much 
research on at Plum Island. We are excited about the 
opportunities that provides.
    Mr. Marshall. Great. Going to my lightning round here, talk 
a little bit about the FMD vaccine bank just for a second. A 
March 2019 GAO report stated the USDA will likely face 
significant challenges in pursuing its response goals of 
detecting and controlling FMD quickly.
    I have gone through several scenarios with folks back home. 
It is a tough challenge. What would be the plan, moving 
forward, to implement the FMD bank and get us where we need to 
be?
    Mr. Ibach. We are working right now to evaluate how we 
might get the most bang for each dollar invested in a vaccine 
bank. As you know, that vaccine has an expiration date of about 
5 years, so we are looking at models that might allow us to be 
able to purchase and then sell back the vaccine, and we are 
working with companies to understand that.
    Actually, not only important is the vaccine, but also 
disease traceability and understanding and identifying where 
the disease might originate, to be able to control and contain 
it, and that is somewhere else that we are partnering with 
Kansas right now and their traceability project, to be able to 
help us.
    Mr. Marshall. Yes, I am familiar with that.
    Let's move on to African swine flu viruses for a second. Of 
course, we are all concerned that we let some type of feed come 
into our country. That is very upsetting. It would seem to me 
it went the opposite way, if we had infected feed come through 
the United States to other countries like China, they would 
probably lock us out of their market. I hope we have a strong 
enough response to that.
    How are we doing on false positive, false negatives for 
testing, and what are we doing for follow up on positive 
samples?
    Mr. Ibach. I will let Dr. Healey answer that question.
    Dr. Healey. The testing protocols that we have used, we 
essentially found zero false positives in our CSF-type tests.
    Mr. Marshall. Wow.
    Dr. Healey. This ASF that we are rolling out, that protocol 
is essentially the very similar protocol, very similar testing. 
We don't anticipate many of those. If we do find them, then of 
course, we will follow back up with additional subsequent 
testing in that screening test.
    Mr. Marshall. Great. Just to move on quickly, the gene 
editing versus an animal drug remains a big concern to folks in 
Kansas. I will associate myself with the remarks made by 
Congresswoman Hartzler, Mr. Comer as well. You have already 
answered that, but I just can't tell you--we have only had one 
food animal gene editing situation approved so far, so they are 
not responding to our needs. Something different has to happen. 
I think that USDA is probably the place. I don't think that 
gene editing is an animal drug.
    And finally, I have a question I want to submit for the 
record for the veterinary biologics regarding adequate funding 
for that research project as well.
    Thank you for having me, Mr. Chairman, and I yield back.
    The Chairman. The gentleman yields back, and the chair will 
now recognize the gentleman from one of the nice parts of 
California, the Central Coast, Congressman Carbajal from Santa 
Barbara.
    Mr. Carbajal. Thank you, Mr. Chairman.
    Mr. Ibach, as we have seen in recent months, disruption in 
vital export markets have caused American farmers, including 
farmers on the Central Coast that I represent, severe economic 
drawbacks that may continue to do harm to our agriculture 
economy for years to come.
    Under Secretary Ibach, you said that part of your mission 
is to protect and preserve open markets for U.S. agriculture 
products. Given the negative impact that the President's trade 
war is having on American farmers, keeping markets open is very 
important. What are the current priorities for APHIS to help 
facilitate trade for U.S. farmers and ranchers?
    Mr. Ibach. APHIS' responsibilities in trade are largely 
focused around the phytosanitary and sanitary restrictions and 
agreements we enter into with other countries around the world. 
As we have seen the difficulties with China emerge and remain 
in place, we have looked for opportunities to reach out to 
other countries around the world to be able to break down those 
sanitary and phytosanitary barriers and create new markets in 
other countries.
    Mr. Carbajal. Do you find that we are being successful?
    Mr. Ibach. Yes, we are having some luck. We are making real 
advancements on the PPQ side, the plant side. Not necessarily 
the subject of today's hearing, but we are making progress with 
many different products.
    Mr. Carbajal. Great.
    In your testimony, you highlighted multiple instances when 
APHIS Animal Health Functions was successful in combating 
potentially devastating disease from either spreading or 
entering the United States. APHIS' role in proactively 
monitoring animal health across the world is essential to 
supporting safe imports and exports. In what ways has APHIS 
elevated the importance of biosecurity to protect U.S. 
livestock and the poultry industry?
    Mr. Ibach. You are very correct. We constantly are 
monitoring disease levels around the world. We do that out of 
our Fort Collins headquarters facility there. And so, as we 
identify potential threats, we evaluate the risks they pose as 
far as either trade or travel of commercial passengers. And 
then we work with Customs and Border Protection to be able to 
make sure that we have them aware of the risks that we perceive 
and try to eliminate and combat that.
    Mr. Carbajal. Thank you. Mr. Chairman, I yield back.
    The Chairman. All right, the gentleman yields back, and the 
chair will now recognize Congressman Bacon from the great State 
of Nebraska.
    Mr. Bacon. Thank you, Mr. Chairman.
    I just have to point out, Under Secretary Ibach is one of 
our favorite sons of Nebraska. We are proud of him. We are 
proud of what you are doing in the Administration, and how you 
are serving our country and our agriculture.
    The Chairman. I assume you say that as a friend.
    Mr. Bacon. As a friend, yes. Then you get ready for the 
hard question.
    If I may, first of all, I just want to thank you for your 
testimony on African Swine Fever and foot-and-mouth disease. I 
think they are very informational, especially on the African 
Swine Fever that we don't really have a known counter or a 
vaccine for it.
    Do you have adequate research dollars that we can put more 
towards African Swine Fever, since we don't have anything to 
counter it right now? Is there anything more that we can give 
you, or what tools can Congress help you with in this regard?
    Mr. Ibach. I think that is one of the things that we are 
constantly working with ARS to be able to identify those 
priority items to be able to shift research dollars into. We 
also work cooperatively with other nations and universities to 
be able to augment each other's research in those areas.
    It is a balance of understanding how many dollars are 
available, what is the best distribution of those dollars to 
address all those? Obviously, there is never enough money to 
fund all the research opportunities that are out there, but we 
seek to find that right balance at USDA.
    Mr. Bacon. Is there a higher priority for research right 
now than African Swine Fever? I am just trying to get a feel 
for what other things you are tackling.
    Mr. Ibach. I would defer to Dr. Healey on that one.
    Dr. Healey. Certainly, with the threat of it across the 
globe that we are seeing and the recognition that it is a 
worldwide issue, vaccine is a key concern.
    The challenge we have is the various types. There are over 
20 different types of African Swine Fever virus out there, and 
it moves between them. It is not an easy virus to find a good 
vaccine for, that is the big challenge.
    Mr. Bacon. Regarding foot-and-mouth disease, it also has a 
lot of different variants. We are much farther along, am I 
correct, when it comes to identifying a vaccine?
    Dr. Healey. Correct. In that one, there are multiple 
different vaccines for each of the various strains, and as was 
mentioned earlier, we are reaching out to Asia to try to get 
some of those strains of that virus so we can determine how 
that one plays into what is in Europe versus what is in Africa.
    Mr. Bacon. I served in the military for about 30 years, and 
when you look at a new weapons system, we try to project what 
is the operational date of such a system, or a unit. What is 
the estimated operational date for the foot-and-mouth disease 
vaccine bank?
    Mr. Ibach. We already have a North American vaccine bank 
that is in operation right now that has some vaccines available 
for us. Today, we would have with a limited outbreak a vaccine 
available to us. We hope by the end of this year to be putting 
out an RFP to be able to start the base for the U.S. one that 
was funded in the 2018 Farm Bill.
    Mr. Bacon. Are there any other tools you need from Congress 
when it comes to foot-and-mouth disease? Are we giving you 
adequate resources?
    Mr. Ibach. The current disease prevention and surveillance 
programs that USDA had in place augmented with the programs 
that came in the 2018 Farm Bill give us a great set of tools to 
be able to invest across the board, and they are sufficient at 
this time.
    Mr. Bacon. And just for folks that may not be as familiar 
with foot-and-mouth disease, if we did not have the vaccine 
bank, can you give our constituents an idea what would be the 
impact if we had a foot-and-mouth disease outbreak in our 
country without a vaccine bank?
    Mr. Ibach. The vaccine bank gives us some great tools. Of 
course, the impact of foot-and-mouth disease, if it does 
present itself in the U.S., is going to be based largely upon 
how it presents itself. If it is a single isolated outbreak in 
a remote portion of the U.S. that we are able to identify and 
there hasn't been livestock movement, a vaccine would be a 
great tool to maybe cordon off and keep our risk into a very 
small area.
    If it is diagnosed in a sow unit that is sending feeder 
pigs to multiple states over the course of a week, it could be 
a very different outbreak to be able to control, contain, and 
manage, and have a very different impact on the livestock 
industry.
    Mr. Bacon. Well, my time has expired. Thank you, and Mr. 
Chairman, I yield back.
    The Chairman. The gentleman yields back. The chair will now 
recognize a good friend and person who represents that same 
nice part of California, the Central Coast, Congressman 
Panetta.
    Mr. Panetta. Thank you, Mr. Chairman. I appreciate this 
opportunity to question this witness, who I also want to thank 
for not only being here, but obviously, your preparation in 
order to be here. Clearly based on your testimony and your 
answers, you have done that, and so thank you very much.
    As the Chairman said, I come from the Central Coast of 
California, and as far as I know, Santa Barbara is not in the 
Central Coast. Just let me make that clear, despite what the 
Chairman said. He is being nice to my good friend and my 
colleague, Salud Carbajal, on that, which we go back and forth.
    But, there is a point to me saying that in the sense that 
on the Central Coast, obviously as many of my colleagues know 
well, it is known as the Salad Bowl of the World. We have some 
livestock, there is no doubt about that. Little dairy, some 
cattle in the southern part. But we have a lot of soft fruits 
and vegetables, and as you know most likely, Mr. Under 
Secretary, there was an E. coli outbreak in regards to the 
product that we have on the Central Coast, although that 
outbreak was not from the Central Coast. It actually took place 
in Santa Barbara County when they eventually determined where 
that outbreak was.
    Yet when the outbreak happened, and when they saw it was 
affecting outlets, understandably, for safety purposes, the 
FDA, per the CDC, came down with a blanket exclusion of all 
romaine right before Thanksgiving, as you remember.
    Now, obviously that was an issue because clearly it affects 
not just the consumers. It affects the growers and everybody 
else who works in that chain.
    I know that APHIS has been trying to work on encouraging 
other countries to deal with regionality, basically trying to 
make sure that you try to make it as specific as possible when 
there is an outbreak of disease. I am going to continue to work 
on this issue so we can deal with the traceability and so that 
obviously with safety being the most important thing. We ensure 
that there is the appropriate advisory in regards to certain 
areas and certain food when this does happen.
    Like I said, I know you are dealing with other countries 
and trying to get them to be as specific as possible when 
responding to disease outbreaks. And so, I was just wondering 
if you could comment on those efforts, and how receptive these 
other countries have been in regards to the regionalization as 
a concept. If you could comment on that, Mr. Under Secretary.
    Mr. Ibach. Yes. You are very correct in mentioning 
traceability as probably the very foundation of being able to 
regionalize, being able to protect the outbreak where it occurs 
and contain that and let other areas of the California or the 
United States be able to continue to sell into the marketplace.
    And I think that is the same experience that we are having 
internationally as well is that having traceability programs in 
place, whether they be in fruit and vegetable industry or more 
importantly in the livestock industry, and for this hearing, 
has been a challenge for USDA. The poultry and swine industry 
have been more embracing of traceability; although, I have had 
some meetings with pork packers recently that aren't sure that 
we have a sufficient traceability reporting timeline in place 
to be able to really protect them. The beef industry, the 
industry that I come from, has been slower to embrace 
traceability, and I am working very closely with them to be 
able to provide producer education to help them embrace 
traceability over time.
    Mr. Panetta. Okay, and just briefly, when it comes to these 
types of outbreaks, can you just give us an idea of what USDA 
is doing, what are the initial steps? How does it respond right 
away when this type of outbreak occurs for this type of 
disease?
    Mr. Ibach. In an animal disease outbreak, USDA would first 
get on site in cooperation with the state veterinarian to be 
able to try to determine whether or not the disease is limited 
to that one farm or operation, or whether or not animal 
movement has caused it to spread. We would look at where 
animals came into that operation from, and where they went to, 
to be able to determine the scope of where we needed to go next 
to try to do that, and that would be our very first step. We 
would move on from there.
    Mr. Panetta. Again, thank you, gentlemen. I yield back my 
time, Mr. Chairman.
    The Chairman. The gentleman yields back his time, and for 
the chair's information, I do stand corrected. But where do you 
believe Central Coast ends in California?
    Mr. Panetta. Where the 20th Congressional District ends.
    The Chairman. Oh, okay. I got that. I stand corrected. I 
will try not to make that mistake again.
    All right. The chair will now recognize the gentleman from 
Minnesota, Mr. Hagedorn.
    Mr. Hagedorn. Thank you, Mr. Chairman, Ranking Member 
Rouzer. I appreciate your testimony, Under Secretary. Thanks 
for being here.
    I represent the southern part of Minnesota, the 1st 
District, and we have a heavy livestock production, number two 
in the country for hogs, and also have a lot of poultry 
production, especially turkeys.
    I guess I will start there with this Newcastle virus or 
whatever you are calling it. It appears to me, based on what 
was presented, that most of the cases have been found in 
California, almost all of them. Are they all related at this 
point to chickens, or do we have turkeys as well? What is the 
mixture on the cases that you found so far?
    Mr. Ibach. I will try to characterize that, and then if 
Burke wants to follow up a little bit, he can do that.
    But so far, they are all pretty much in backyard flocks in 
three southern counties of California. Those backyard flocks 
represent exhibition birds, as they are defined by OIE. Many of 
them are small, but some of them are backyard flocks that have 
several hundred to low thousands of birds in them as well. We 
have only had four commercial flocks affected by Newcastle so 
far, and they have been in those three counties as well, and 
so, we continue to work very hard to try to contain the disease 
in that area. That is the reason why when the national poultry 
industry saw that the measures that we had put in place last 
summer weren't working to arrest the disease, that we brought 
more funding in through the high-path funding to designate it 
to that Newcastle effort.
    Mr. Hagedorn. Okay. Your efforts to help prevent it from 
spreading are letting people know across the country, 
particularly in Minnesota, I take it, you are working with a 
lot of the producers, but so far, you haven't seen anything in 
the industry, just these kind of backyard cases.
    Mr. Ibach. Yes, we have made the entire industry aware of 
it. We have also put some movement and even disinfectant 
protocols in place leaving those counties so that egg and egg 
products and poultry and poultry products that are leaving the 
infected area pose less risk to the rest of the United States.
    Mr. Hagedorn. Switching gears over to the African Swine 
Fever, I can tell you that the hog producers and farmers in 
southern Minnesota, they are very concerned. And they 
appreciate your work. They just want to make sure that we are 
making sure that you are doing everything possible. I spoke 
with you just a little bit before the hearing, and you said 
that you are working across agency lines throughout the entire 
Administration to make sure that you do everything possible to 
protect our food supply and protect our agricultural interests.
    In some nations, they are taking a pretty heavy-handed 
approach against China. I know that from inbound flights to 
Taiwan, for instance, that people are told that if they have 
any Chinese pork products or anything of that nature, they get 
a heavy fine, and there are public service announcements even 
on the airlines. Should we be taking some of those types of 
steps, or what are your thoughts on that?
    Mr. Ibach. We have taken steps to increase the 
communication to that passenger traffic moving in and out, and 
there is additional signage and announcements that are being 
made at airports to try to encourage those passengers if they 
do have prohibited products to surrender those products at the 
airport. Also, the dog patrols have been increased.
    Probably the area that we also have really stepped up in is 
within APHIS, we have a SITC division that actually goes out 
into ethnic marketplaces looking for prohibited products, and 
so we have focused now on looking in those ethnic marketplaces 
that might be bringing in products from high-risk countries. In 
some cases, we have identified these products that have been 
smuggled into the U.S. We then do investigations to figure out 
how they were smuggled into the U.S. And so, some of the 
announcements that you have heard from Customs and Border 
Protection about cargoes that have been intercepted that have 
these prohibited products have been a result of those 
investigations out into the country and the follow up from 
those.
    Mr. Hagedorn. Very quickly, maybe you can answer this for 
the record.
    We obviously don't want it coming directly into the United 
States, and we work very closely with our trading partners to 
the north and south, Canada and Mexico. They have some 
significant hog operations as well. We don't want it there 
either. We have a relatively porous border, I would say, 
especially to the south. It would make it much easier to get it 
in the country. Are we working with our trading partners? And 
if you don't have time, I don't want to take up the Committee's 
time. Maybe you can answer that for the record.
    Mr. Ibach. We are working very closely with both Mexico and 
Canada.
    Mr. Hagedorn. Thank you.
    The Chairman. The gentleman's time has expired, and we have 
a wonderful arrival of the gentleman from Pennsylvania, 
Congressman Thompson.
    Mr. Thompson. Mr. Chairman, thank you so much. You are 
kind. I apologize for----
    The Chairman. Always glad to have you here.
    Mr. Thompson. Right on time, I guess, from some 
perspectives, but I wish I could have been here for other 
questions. I just came from the Floor.
    Mr. Secretary, good to see you.
    Mr. Ibach. Nice to see you.
    Mr. Thompson. Thank you for your leadership and your 
service, it is much appreciated.
    A couple items I wanted to touch on: As you know, Section 
7209 of the farm bill provides high priority status for 
specific research and extension initiatives, and I was pleased 
that we were able to get into the farm bill designated Chronic 
Wasting Disease in that farm bill that was signed by the 
President mid-December of just this past year. Can you describe 
what we can expect with research on this disease?
    Mr. Ibach. I will start to answer that question and let Dr. 
Healey finish it.
    But as you know, APHIS' responsibilities are focused on 
those captive herds, and we work closely with their state 
wildlife agencies on the wild populations. We recently released 
some new protocols for those captive herds that we think are 
going to help us.
    Dr. Healey will maybe elaborate a little bit on the 
research that we are doing to try to identify how to maybe if 
not find a cure for the disease, at least try to manage the 
spread of the disease.
    Dr. Healey. A couple things that we do. One is to build a 
bank of tissues and materials so when we have an infected herd, 
we go through that herd and identify the animals that are 
positive, negative, and collect tissues from all them, 
establish that bank, and make that available to researchers so 
they can come in and ask for that material and actually know 
that they are looking at lymph nodes or blood or whatnot from 
an infected animal versus exposed animals, et cetera.
    Additionally to that, we are working with the industry to 
come up with other techniques to try to prohibit the disease 
and learn about the disease. There are some disease resistance 
and genotypes and things of that nature that show some promise. 
Right now, it is more in white tail. We are also looking at 
live animal testing and other mechanisms and more rapid 
testing, as well as variety of diagnostics, and hopefully 
develop eventually genetics and some prevention techniques as 
well.
    Mr. Thompson. Very good. I appreciate that. Certainly, it 
is my priority. And for those who don't know, obviously this 
impacts cervids and it is not limited to, but certainly in 
Pennsylvania lose our white tail deer population and our elk 
herd. And really, can be devastating economically and not just 
to our deer farms, but obviously to our wild herds.
    A couple of my priorities I would like to see us just keep 
in mind. You have already kind of mentioned them, and Dr. 
Healey, in your testimony. One is, we need to come up with a 
live test. It is unacceptable to me that we suspect one animal 
is sick; well, whether this is in a deer farm, or quite 
frankly, in a wild deer population. There are a couple hot 
spots in Pennsylvania right now, Bedford County and part of my 
district in Clearfield County. The fact that we cull a herd and 
then we test them and find that most of the ones, thankfully, 
were not sick, but unfortunately, they are all dead because of 
culling the herd. And so, a live test would be just a 
tremendous service for both.
    And then, of course, as you had mentioned, whether some 
way, obviously in the deer farms, inoculation, but in the wild, 
perhaps feed distribution or something to be able to address 
that proactively. We do have a Chronic Wasting Disease Research 
Act, H.R. 2081, a bill that I introduced here. It has great 
bipartisan support, and we are hoping to build that basically 
to provide $15 million towards research so we can look at all 
aspects of the disease.
    Under Secretary, thank you again for coming to Harrisburg 
last year in the beginning of January when it is always not 
necessarily warm and balmy.
    Mr. Ibach. That was a really cold day.
    Mr. Thompson. That was a really cold day, and that was for 
our annual Farm Show listening session. It was great having you 
there. Actually, your presence there was so monumental in terms 
of having us, because since that session, we have seen 
additional resources from USDA to help Pennsylvania deal with 
the spotted lantern fly, which is just devastating to fruit 
trees, grapes, hardwoods. Do you have any update on USDA's 
efforts to help suppress this particular invasive species?
    Mr. Ibach. We are continuing our partnership and working 
with Secretary Redding--Commissioner, Secretary, Director, I 
can't remember in Pennsylvania.
    Mr. Thompson. Secretary.
    Mr. Ibach. Secretary Redding to be able to invest some 
additional USDA funds. Kevin Shea, the Administrator for APHIS, 
was up with Secretary Redding as we kicked off this year's 
efforts, and so we continue to want to work cooperatively with 
Pennsylvania.
    Mr. Thompson. Thank you very much. Thank you, Mr. Chairman.
    The Chairman. Well, we thank you for your contributions, 
and the gentleman's time has expired.
    Now before we adjourn, I want to recognize the Ranking 
Member for any closing remarks that he may want to make.
    Mr. Rouzer. Thank you, Mr. Chairman. I appreciate you 
holding this hearing, and really enjoy working with you on 
these issues. I really appreciate our two witnesses for being 
here today. This is a really, really important topic, disease 
prevention and surveillance, and I can't tell you how important 
it is from the standpoint of my constituents back home. Of 
course, you readily know that and understand the importance to 
our agriculture sector, and as I said during the course of my 
opening statement, food security is national security. It all 
goes hand in hand, so thank you for being here. I appreciate 
your testimony and answering the questions the way you did, it 
was very informative.
    Mr. Chairman, I yield back.
    The Chairman. All right. I want to thank the Ranking Member 
for the contribution that he has made, and staff, both the 
Minority staff and the Majority staff of this Subcommittee for 
the good work they have done.
    Mr. Secretary and Doctor, I want to thank you for your 
testimony today.
    I do want to note, as we discussed in a lot of questions 
that were asked by the Subcommittee Members in terms of the 
USDA's preparedness that while the $5 million for the 
implementation of the National Animal Disease Preparedness and 
Response Program and your goal to have that implemented by the 
end of this year is positive. We are going to stay on you on 
that, because we think it is important. That is why we did 
that.
    I am still not really satisfied, frankly, with the answer 
or the vagueness of the answer on the National Animal Vaccine 
and Veterinary Countermeasures Bank, and we will follow up 
there. As we noted earlier, the President's budget as proposed, 
I don't think is going to allow you to do what we have tried to 
change in last year's farm bill. And so, hopefully the Congress 
will come together in a bipartisan budget that we ultimately 
send to the President that will give you the resources to do 
what is needed for America's agricultural industry as we talk 
about the needs of the livestock industry throughout the 
country. And of course, they were highlighted here today and we 
will follow up on that. We wish you the best and continued 
cooperation by all the Members of the Subcommittee. When we 
work together, we get things done on behalf of American 
agriculture. Please give Secretary Perdue our regards, and we 
look forward to continuing this work.
    The Subcommittee's hearing now is adjourned.
    Yes.
    Okay, let me note with the recognition of the Members, I 
know I adjourned, under the Rules of the Committee the chair 
will recognize that today's hearing will remain open for 10 
calendar days to receive any additional material and 
supplementary written responses from the witness due to any 
questions posed by a Member of this Subcommittee.
    This hearing is now adjourned.
    [Whereupon, at 12:42 p.m., the Subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
                          Submitted Questions
Response from Hon. Greg Ibach, Under Secretary, Marketing and 
        Regulatory Programs, U.S. Department of Agriculture
Questions Submitted by Hon. Jim Costa, a Representative in Congress 
        from California
    Question 1. Thank you for providing a broad outline of your goals 
for implementation of the new National Animal Disease Preparedness and 
Response Program and National Animal Vaccine and Veterinary 
Countermeasures Bank, and the reauthorization of the National Animal 
Health Laboratory Network. We understand that the implementation of the 
two new programs will require careful consideration to maximize the 
value of this new investment. In order to better understand the 
implementation efforts remaining before you, please provide written 
responses to the following inquiries:
    Have you set any benchmarks for progress on the documentation 
required for participation in the cooperative agreements as part of the 
National Animal Disease Preparedness and Response Program? If so, how 
much progress have you made? If not, how are you measuring your effort 
to complete the cooperative agreement framework, and when do you expect 
to begin engaging the partners identified in the 2018 farm bill?
    Answer. APHIS has drafted plans for how it may implement and carry 
out the National Animal Disease Preparedness and Response Program, 
which includes internal timelines and milestones for its successful 
implementation. Those plans are under internal review and discussion. 
The bill specifically carves out a minimum of $5 million for this 
program; we are committed to spending at least that amount this 
calendar year on important animal health projects as we continue to 
build an effective long-term program. We anticipate beginning 
discussions with stakeholders as outlined by the bill in order to 
identify program priorities this year.

    Question 2. Have you set any benchmarks for progress on completion 
of the regulatory structure surrounding the creation of the National 
Animal Vaccine and Veterinary Countermeasures bank? If so, how much 
progress have you made? If not, how are you measuring your effort to 
create the bank?
    Answer. APHIS has also drafted plans for how it may implement and 
carry out the National Animal Vaccine and Veterinary Countermeasures 
Bank. Those plans are under internal review with the goal of issuing a 
sources sought notice covering the initial purchase of foot-and-mouth 
disease vaccine by the end of 2019.
Questions Submitted by Hon. Filemon Vela, a Representative in Congress 
        from Texas
    Question 1. An external team assembled by APHIS completed a review 
of the CFTEP in March 2019, citing program advancements in recent years 
and overall lending strong support for continued operations as 
currently structured. An internal team is now working to complete a 
separate review of the CFTEP, and there is word of yet another review 
team to be dispatched from the administrator's office. The health and 
marketability of our nation's livestock is at stake, and the success of 
the CFTEP is dependent on the combined efforts of APHIS, the state of 
Texas, and the livestock industry.
    What is the USDA-APHIS stance on supporting the Cattle Fever Tick 
Eradication Program (CFTEP) in Texas? Why the concern and review of 
this particular program? 
    Answer. APHIS remains a strong supporter of the Cattle Fever Tick 
Eradication Program (CFTEP), which has been successful in driving the 
tick into a permanent quarantine zone along the Mexican border to the 
great benefit of producers and ranchers in Texas and throughout the 
United States. The program is instrumental in protecting the livestock 
industry and in preserving export markets. The recent review of the 
program should not be interpreted as a lack of support for the program, 
but an indication that we want to make the program work effectively for 
producers and the public, particularly given some of the challenges--
such as transmission by wildlife--the program faces. The review will 
focus on processes and tools APHIS and its state partners can use to 
stop infestations of the tick.

    Question 2. An increasing number of Federal personnel are being 
tasked to California for the vND outbreak response. While vND is a 
serious disease threat to the U.S. poultry industry and warrants a 
joint state-Federal-industry response, much needed resources are being 
pulled from the TB eradication effort at a critical time. TB has 
recently been detected in multiple large dairy herds in Texas and New 
Mexico, and Federal resources are needed to mitigate the risk of 
disease spread by regularly testing the affected herds and over 100,000 
TB exposed cattle in Texas, New Mexico, Oklahoma, Kansas, and Colorado.
    What is the USDA-APHIS stance on supporting bovine tuberculosis 
(TB) eradication in the U.S.?
    Answer. APHIS manages the National Tuberculosis Eradication 
Program, and our goal remains the eradication of the disease from the 
country. We continue to provide support to state and industry partners 
through that program, including epidemiological support, indemnity as 
appropriate, cooperative agreement funding, and assistance with 
testing, diagnostics, and other laboratory services. We urge state 
departments of agriculture to work with their wildlife and public 
health counterparts to create comprehensive plans for managing wildlife 
reservoirs; effectively use biosecurity and other mitigations; and to 
harmonize interstate herd movement requirements. While there have been 
a number of large affected herds in recent years, these eradication 
efforts are not being impaired by the outbreak of virulent Newcastle 
Disease (vND) in California. Funding for the vND outbreak has come from 
a separate pool of emergency funding. In March, the Secretary announced 
that he made available $45 million in emergency funding to address the 
outbreak of vND, which had not been detected in the United States for 
almost twenty years.
Question Submitted by Hon. Scott DesJarlais, a Representative in 
        Congress from Tennessee
    Question. On May 20, 2019, the Tennessee Department of Agriculture 
state veterinarian's office announced they are investigating an 
outbreak of Equine Piroplasmosis (EP). Twenty-two racing Quarter Horses 
have tested positive for EP in five locations within Bedford, 
Rutherford, and Williamson Counties. The horses are all under 
quarantine and being treated. Although this is breaking news, what will 
USDA's involvement be in both this case and in preventing the spread of 
EP in the United States?
    Answer. Equine piroplasmosis (EP) is a tick-borne disease that 
affects horses, donkeys, mules, and zebras. The disease is not endemic 
in the United States, and we require that horses imported into the 
country test negative for the disease. The disease is transmitted via 
tick bites or through mechanical transmission by improperly disinfected 
needles or surgical instruments. EP is a reportable foreign animal 
disease, and suspected cases must be reported to state or Federal 
animal health officials. If an animal tests positive, it must be placed 
under quarantine and can either enroll in the APHIS-approved EP 
treatment program, remain under lifelong quarantine, or be euthanized. 
The APHIS-approved EP treatment protocol uses high doses of imidocarb 
dipriopionate to permanently clear the organism from the horse. Treated 
horses are released from quarantine once all diagnostic tests return to 
a negative antibody status. Quarantines may last for 1 or more years as 
antibody titers take time to reach negative levels. With respect to the 
recent cases in Tennessee, APHIS has been managing these cases to 
prevent any potential spread of the disease. These cases appear to be 
related to each other, and the outbreak appears to be related to the 
re-use of veterinary medical equipment among the horses.

                                  [all]
</pre></body></html>
